Supreme Court, U.S.
FILED

WAIVER

FEB 1 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Angela Thigpen

20-959
v.

Bd. of Trustees

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
S I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date. 02/11/2021
(Type or print) Name

Susan Bruno
D Mr. F] Ms. El Mrs.

❑ Miss

Cary Kane LLP
Address 1350 Broadway, Suite 2220
zi 10018
City & State New York, NY
sbruno@carykane.com
Phone (212)-868-0300 Email
Firm

p

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,

CC: Angela Thigpen

CARY KANE
A LIMITED LIABILITY PARTNERSHIP FOR THE PRACTICE OF LAW

WRITER'S DIRECT TEL/FAX
(212) 871-0540 (T)

SUSAN BRUNO
SBRUNOACARYKANE.COM

February 11, 2021
Via Priority Mail
Clerk of the Court
United States Supreme Court
One First Street NE
Washington DC 20543
Re: Angela Thigpen v. Board of Trustees of the Local 807 Labor-Management Pension
Fund, Docket No. 20-959
Dear Sir or Madam,
This firm represents the Board of Trustees of the Local 807 Labor-Management Pension
Fund ("Board") in the matter noted above. Enclosed please find the Board's waiver of response
related to Ms. Thigpen's petition for a writ of certiorari. The Board believes that the claim and
petition are meritless and untimely and, thus, that no response is warranted.
Respectfully submitted,
Cary Kane, LLP

S

c—Reu"--(7
iSav\-By: Susan Bruno
Cc: Ms. Angela Thigpen (by first class mail)

:!Vaiii.)
FEB 19 2021
OFFICE OF THE CLERK
SUPREME C • URT U.S•

CARY KANE LLP • 1350 BROADWAY, SUITE 1400 • NEW YORK, NY 10018 • 212.868.6300 • WWW.CARYKANE.COM

